OFFICE OF INSPECTOR GENERAL
      for the Millennium Challenge Corporation

AUDIT OF THE MILLENNIUM CHALLENGE
CORPORATION’S FINANCIAL STATEMENTS,
INTERNAL CONTROLS, AND COMPLIANCE
FOR THE PERIOD ENDING
SEPTEMBER 30, 2012 AND 2011


AUDIT REPORT NO. M-000-13-001-C
November 15, 2012
WASHINGTON, DC


Financial information contained in this report may be privileged. The
restrictions of 18 USC 1905 should be considered before any information is
released to the public.
Office of Audit
 for the Millennium Challenge Corporation




November 15, 2012


Mr. Daniel Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005-2203


Subject:             Audit of the Millennium Challenge Corporation’s Financial Statements,
                     Internal Controls, and Compliance for the Period Ending September 30,
                     2012 and 2011 (Report No. M-000-13-001-C)

Dear Mr. Yohannes:

Enclosed is CliftonLarsonAllen LLP’s, final report on the subject audit. The Office of Inspector
General (OIG) contracted with the independent certified public accounting firm of
CliftonLarsonAllen LLP, to audit the financial statements of the Millennium Challenge
Corporation (MCC) for the period ending September 30, 2012. The contract required that the
audit be performed in accordance with United States Generally Accepted Government Auditing
Standards, Office of Management and Budget (OMB) Bulletin 07-04 as amended, Audit
Requirements for Federal Financial Statements, and the GAO/PCIE Financial Audit Manual.

The Independent Auditors expressed an unqualified opinion on MCC’s FY 2012 Financial
Statements. The report stated that the financial statements referred to above present fairly, in all
material respects, the net position of MCC as of September 30, 2012, and its net cost, changes
in net position and budgetary resources for the fiscal year then ended, in conformity with
accounting principles generally accepted in the United States of America. MCC’s financial
statements as of September 30, 2011 were audited by other auditors.




U.S. Agency for International Development
Office of Inspector General
1300 Pennsylvania Ave, NW
Washington, DC 20523
www.usaid.gov/oig
In its audit of MCC’s fiscal year 2012 financial statements the auditor’s identified one issue that
was considered a material weakness and three other issues that were considered significant
deficiencies. These matters are listed below and are detailed in the auditor’s report.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of an entity's financial statements will not be prevented,
or detected and corrected on a timely basis.

Material Weakness

       Ineffective and Inefficient Interrelationship among Software, Personnel, Procedures,
       Controls and Data within MCC’s Financial Management Systems

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance.

Significant Deficiencies

       Validation Control over Grant Accrual Estimates Needs to be Strengthened

       Monitoring Control over Funds Provided to MCAs Needs Improvement

       Information Systems Controls Need Improvement

The auditors did not note any instance of material non-compliance with laws and regulations.

In carrying out its oversight responsibilities, the OIG reviewed CliftonLarsonAllen LLP, Internal
Audit Report and audit documentation. This review, as differentiated from an audit in
accordance with U.S. Generally Accepted Government Auditing Standards was not intended to
enable the OIG to express, and we do not express, opinions on MCC’s financial statements, or
internal control; or on MCC’s compliance with other laws and regulations. CliftonLarsonAllen
LLP is responsible for the attached auditor’s report, dated November 15, 2012, and the
conclusions expressed in the report. However, our review disclosed no instances where
CliftonLarsonAllen LLP, did not comply, in all material respects, with applicable standards.

To address the material weakness and significance deficiencies in internal controls reported by
CliftonLarsonAllen LLP, we are listing below the findings with 22 recommendations to MCC’s
management:


Material Weakness

Ineffective and Inefficient Interrelationship among Software, Personnel, Procedures,
Controls and Data within MCC’s Financial Management Systems




                                                  3
Recommendations: With regards to the core financial system, we recommend that MCC:

   1. Perform a comprehensive review and determine whether the service provider’s financial
      management system is substantially in compliance with the federal financial
      management system’s requirements and meeting MCC financial management and
      reporting needs. As part of this review, management should determine if a separate
      grants management system that focuses on program administrations that interfaces with
      the core financial system is needed.

   2. Investigate and correct the causes for the underlying system errors and limitations that
      prevent or delay the recording, processing, and summarizing of accounting transactions.

   3. Review USSGL transaction posting models so that all routine accounting transactions
      are included in the normal accounting processes. Manual adjusting journal entries
      should be used for limited transactions like unusual one-time entries. All valid recurring
      entries that are currently entered manually should have standard transaction codes set-
      up to prevent posting errors.

With regards to the workbook, we recommend that MCC:

   4. Hard code key cells in the excel spreadsheets used in preparing and generating the
      financial statements to prevent unintentional or inadvertent changes.

   5. Limit access and ability to make changes to the workbook to a few personnel. Assign a
      staff and a designate as primarily responsible and accountable for the workbook.

   6. Create a log to document changes to the workbook, the date of change, the person
      making the change, and the changes made.

   7. Investigate the use of alternative approaches such as the use of a financial statement
      generation software tool or other financial management system that can interface with
      the trial balance or the core financial system and automatically generate the financial
      statements.

With regards to supervisory reviews, we recommend that MCC:

   8. Develop a comprehensive financial statements review process that details specific steps
      performed, results of such reviews, steps taken to resolve discrepancies noted, and
      related management resolution.

   9. Implement an effective management review using the comprehensive review process
      developed in recommendation 8 to ensure that all transactions for the accounting period
      are accurately and completely reflected in the financial statements, current year
      beginning balances agreed to prior year audited balances, and reconciling items are
      recorded timely. Such management reviews should be performed quarterly and at year-
      end timely with evidence of management sign-off signifying levels of reviews performed.




                                               4
With regards to financial staff resource management, we recommend that MCC:

   10. Cross-train MCC financial staff on the financial statements preparation process to
       ensure that there is more than one person knowledgeable and can prepare the financial
       statements.

Significant Deficiencies

Validation Control over Grant Accrual Estimates Needs to be Strengthened

Recommendations: We recommend that MCC:

   11. Perform a grant accrual look back analysis on a quarterly basis. The look back analysis
       and the results should provide MCC sufficient information to explain unusual variances
       between actual and estimates, or support updating the current grant accrual
       methodology. Such periodic assessment of the adequacy of the grant accrual
       methodology should be documented and supported by data analysis. The accrued
       liability amount is subject to the risks that actual subsequent disbursement amount may
       be significantly different from management’s estimate. When this occurs, management
       should further analyze the drivers/factors to ensure the validity and reasonableness of
       the estimation methodology.

   12. Update the Expense Accruals Policy and Procedures to reflect the change in the
       methodology.

   13. Develop audit procedures for the MCA audit to compare spending authority request
       amount against actual expenses, and investigate and document significant variances.
       The results should be provided to MCC, which can use this information collected from
       the MCA audits as data store to validate or enhance the current methodology.

   14. Continue to enhance the accrual methodology.


Monitoring Control over Funds Provided to MCAs Needs Improvement

A. Audit Reports

Recommendations:


   15. MCC management should have control over how these audits should be conducted to
       meet its financial and programmatic accountability, needs and requirements. MCC
       management should collaborate with USAID OIG to clarify and document management
       roles, responsibilities, and performance standards and the USAID OIG oversight role
       with regards to MCA audits.

   16. MCC needs to evaluate its resources, capability, and ability to monitor and review the
       quality and performance of the audits and the audit firms to track and conduct follow-up
       of corrective action plans with the MCAs in a timely manner.




                                               5
B. Final Quarterly Financial Report (QFR)

Recommendations:

We recommend that MCC:

   17. Utilize the QFRs and the monthly reconciliations as monitoring tools over the MCA’s
       financial reporting process and the MCC’s validation of its financial records. To be
       effective as monitoring tools, the re-designing of the QFR form and the development and
       documentation of the monthly reconciliation process should ensure that relevant data
       and information are reported by the MCAs and reported timely.

   18. Ensure that MCA reconciliations are provided to MCC and reviewed to investigate
       material variances and make corrections, if any.


   19. Require the MCA audit firms to test the design and effectiveness of the MCA’s internal
       control over the QFRs and the monthly reconciliation, and to test for the accuracy of the
       balances and reconciliation.

   20. Develop and implement reconciliation procedures to document the complete
       reconciliation between the MCA’s final QFR and MCC’s records.

C. Expired Compacts Not Financially Closed-Out

Recommendations:

We recommend that MCC:

   21. Timely assess the MCA’s need for the remaining compact funds so that the funds could
       be de-obligated within the timeline in the policy and procedures after the compact
       expires.

   22. Develop and implement a financial management policy that separates the programmatic
       close-out process from the financial close-out process. This policy should clearly layout
       the expected timing for de-obligation.

Information Systems Controls Need Improvement

Recommendation:

We are not repeating the recommendations which are included in the USAID OIG Report titled
“Audit of Millennium Challenge Corporation’s Fiscal Year 2012 Compliance with Federal
Information Security Management Act of 2002,” Audit Report M-000-13-001-P, dated
November 6, 2012.

In finalizing the report, CliftonLarsonAllen LLP, evaluated MCC’s response to the report and
acknowledged that management decisions have been reached on all of the recommendations.




                                               6
MCC plans to complete its corrective actions by June 30, 2013, or have documented the
appropriate timeline in which actions will be completed.

The OIG acknowledges MCC’s management decisions for all 22 recommendations. Please
inform us when final action has been achieved.

We appreciate the cooperation and courtesies extended to our staff and to the staff of
CliftonLarsonAllen LLP, during the audit. Please contact Fred Jones at (202) 216-6963, if you
have any questions concerning this report.




                                                          Sincerely,

                                                                   /s/

                                                          Richard J. Taylor
                                                          Deputy Assistant Inspector General
                                                          for Audit
                                                          Millennium Challenge Corporation



       cc:    Steven Kaufmann, Chief of Staff
              kaufmannsm@mcc.gov

              Chantale Wong, Vice President of Administration and Finance
              wongcy@mcc.gov

              Margaret Yao, Deputy Vice President of Administration and Finance
              yaoml@mcc.gov

              Patrick Fine, Vice President of Compact Operations
              finepc@mcc.gov

              Terry Bowie, Chief Financial Advisor
              tlbowie@mcc.gov

              Eric Redmond, Assistant Deputy Chief Financial Officer
              redmondeg@mcc.gov

              Arlene McDonald, Compliance Officer
              mcdonalda@mcc.gov




                                                7
                     MILLENNIUM CHALLENGE CORPORATION (MCC)

                                      September 30, 2012


                                       Table of Contents



Description                                                                      Page

INDEPENDENT AUDITOR’S REPORT                                                        1

    Exhibit 1 – Material Weakness                                                 1-1

    Exhibit 2 – Significant Deficiencies                                          2-1

    Exhibit 3 – Status of Prior Year’s Audit Findings and Recommendations         3-1

    Exhibit 4 – Management’s Response to Findings Contained in the Independent
      Auditor’s Report                                                            4-1


MCC ANNUAL FINANCIAL REPORT
                                                                      CliftonLarsonAllen LLP
                                                                      www.cliftonlarsonallen.com




                             INDEPENDENT AUDITOR’S REPORT


To the Inspector General
U.S. Agency for International Development

To the Board of Directors
Millennium Challenge Corporation

We have audited the accompanying balance sheet of the Millennium Challenge Corporation
(MCC) as of September 30, 2012, and the related statements of net cost and changes in net
position, and the combined statement of budgetary resources (“financial statements”) for the
year then ended. The objective of our audit was to express an opinion on the fairness of these
financial statements. In connection with our audit, we also considered the internal control over
financial reporting and considered MCC’s compliance with laws and regulations. In our audit, we
found:

      The financial statements are presented fairly, in all material respects, in conformity with
       accounting principles generally accepted in the United States of America (U.S.);
      One material weakness and three significant deficiencies in internal control over financial
       reporting and compliance with laws and regulations;
      No instance of reportable noncompliance with selected provisions of laws and
       regulations tested.

The following sections and exhibits discuss in more detail: (1) above conclusions, (2)
Management’s Discussion and Analysis (MD&A) and other accompanying information, (3)
management’s responsibility for the financial statements, (4) our responsibility for the audit, (5)
management’s response and our evaluation of their response, and (6) the current status of prior
year’s findings and recommendations.

Opinion on the Financial Statements

In our opinion, the financial statements referred to above, present fairly, in all material respects,
the financial position of MCC as of September 30, 2012 (FY 2012), and its net cost; changes in
net position; and budgetary resources for the year then ended in conformity with accounting
principles generally accepted in the United States. The financial statements of MCC as of and
for the year ended September 30, 2011 (FY 2011) were audited by other auditors, whose report
dated November 10, 2011, expressed an unqualified opinion on those financial statements.
MCC reclassified certain financial statement line items of the combined statement of budgetary
resources (SBR) for FY 2011 to be consistent with FY 2012 presentation in accordance with
accounting principles generally accepted in the United States. The other auditors reported on
the financial statements before these reclassifications. We have audited the reclassifications in
the SBR. In our opinion, such reclassifications are appropriate and have been properly applied.




                                                 1
Report on Internal Control over Financial Reporting and Compliance

In planning and performing our audit, we considered MCC’s internal control over financial
reporting and compliance (internal control) as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of MCC’s internal control or on management’s
assertion on internal control included in the MD&A. Accordingly, we do not express an opinion
on the effectiveness of MCC’s internal control or on management’s assertion on internal control
included in the MD&A.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or a combination of deficiencies in internal control, such that there is a reasonable
possibility that a material misstatement of the MCC’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a control deficiency, or
combination of deficiencies in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described above and was not
designed to identify all deficiencies in internal control that might be significant deficiencies or
material weaknesses. However, we identified a combination of deficiencies in internal control
described in Exhibit 1 that we consider to be a material weakness and other deficiencies
described in Exhibit 2 that we consider to be significant deficiencies.

Also, as required by Office of management and Budget (OMB) Bulletin 07-04, Audit
Requirements for Federal Financial Statements, as amended, we compared the material
weakness disclosed during the audit with those material weaknesses reported in the MCC’s
Federal Managers Financial Integrity Act (FMFIA) report that relate to the financial statements.
Our audit did not identify any material weakness that were not identified by MCC in their FMFIA
report.

We also noted non-reportable matters that we communicated to MCC and will include in a
separate management letter to MCC to be dated November 12, 2012.

Report on Compliance and Other Matters

In connection with our audit, we performed tests of MCC’s compliance with selected provisions
of applicable laws and regulations. The results of our tests disclosed no instances of
noncompliance that are required to be reported in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States or OMB Bulletin 07-04, as
amended. However, the objective of our audit was not to provide an opinion on compliance with
laws and regulations. Accordingly, we do not express such an opinion.

Status of Prior Year’s Audit Findings and Recommendations

We have reviewed the status of MCC’s corrective actions with respect to the findings and
recommendations included in prior year’s Independent Auditor’s Report dated November 10,
2011. The status of prior year’s findings and recommendations is presented in Exhibit 3.




                                                2
Other Information

Accounting principles generally accepted in the U.S. require that MCC’s MD&A be presented to
supplement the financial statements. Such information, although not a part of the financial
statements, is required by the Federal Accounting Standards Advisory Board who considers it to
be an essential part of financial reporting for placing the financial statements in an appropriate
operational, economic, or historical context. We have applied certain limited procedures to the
MD&A in accordance with auditing standards generally accepted in the U.S., which consisted of
inquiries of management about the methods of preparing the information and comparing the
information for consistency with management's responses to our inquiries, the financial
statements, and other knowledge we obtained during our audit of the financial statements. We
do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any
assurance.

Other information included in the Annual Financial Report, other than the financial statements,
MD&A, and the Independent Auditor’s Report is presented for additional analysis and is not a
required part of the financial statements. Such information has not been subjected to the
auditing procedures applied in the audit of the financial statements and, accordingly, we express
no opinion on them.

Management’s Responsibility for the Financial Statements

MCC management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the U.S., (2) designing, implementing, and
maintaining internal control to provide reasonable assurance that the broad control objectives of
FMFIA are met, and (3) complying with other applicable laws and regulations.

Auditor’s Responsibility

We are responsible for conducting our audit in accordance with auditing standards generally
accepted in the U.S.; the standards applicable to the financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
07-04, as amended. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are presented fairly, in all material
respects, in conformity with accounting principles generally accepted in the U.S. We are also
responsible for: (1) obtaining a sufficient understanding of internal control over financial
reporting and compliance to plan the audit, (2) testing compliance with selected provisions of
laws and regulations that have a direct and material effect on the financial statements, and laws
for which OMB Bulletin 07-04 requires testing, (3) performing limited procedures with respect to
certain other information appearing in the published Annual Financial Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the appropriateness of the
accounting policies used and the reasonableness of significant estimates made by
management; (3) evaluated the overall presentation of the financial statements; (4) obtained an
understanding of MCC and its operations, including its internal control related to financial
reporting (including safeguarding of assets) and compliance with laws and regulations (including
execution of transactions in accordance with budget authority); (5) evaluated the effectiveness
of the design of internal control; (6) tested the operating effectiveness of relevant internal
controls over financial reporting and compliance; (7) considered the design of the process for


                                                 3
evaluating and reporting on internal control and financial management systems under FMFIA;
(8) tested compliance with selected provisions of certain laws and regulations. The procedures
selected depend on the auditor’s judgment, including our assessment of risks of material
misstatement of the financial statements, whether due to fraud or error. We believe we obtained
sufficient and appropriate audit evidence on which to base our conclusions.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our audit results to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to MCC. We limited our tests
of compliance to selected provisions of laws and regulations that have a direct and material
effect on MCC’s financial statements and those required by OMB Bulletin 07-04 that we deemed
applicable to MCC’s financial statements for the fiscal year ended September 30, 2012. We
caution that noncompliance with laws and regulations may occur and not be detected by these
tests and that such testing may not be sufficient for other purposes.

MCC’s Comments and our Evaluation

Management concurred with all our findings and recommendations. Management’s response to
our report is presented in Exhibit 4.

                                  *********************************

This report is intended solely for the information and use of MCC management, U.S. Agency for
International Development (USAID) Office of Inspector General, OMB, the Government
Accountability Office (GAO), and the U.S. Congress, and is not intended to be, and should not
be, used by anyone other than these specified parties.

CLIFTONLARSONALLEN LLP




Arlington, Virginia
November 12, 2012




                                                 4
                         MILLENNIUM CHALLENGE CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 1
                                  September 30, 2012

MATERIAL WEAKNESS

1. Ineffective and Inefficient Interrelationship among Software, Personnel, Procedures,
   Controls and Data within MCC’s Financial Management Systems

GAO Standards for Internal Control in the Federal Government states that internal control is not
one event, but a series of actions and activities that occur throughout an entity’s operations and
on an ongoing basis. Control activity, which is one of the standards for internal control, may be
applied in a computerized information system environment, or through manual processes.
Information system control should be installed at an application’s interfaces with other systems
to ensure that all inputs are received and are valid, and outputs are correct and properly
distributed. Some control activities include: controls over information processing, management
of human capital, proper execution of transactions and events, accurate and timely recording of
transactions and events, and appropriate documentation of transactions. Monitoring, which is
another standard for internal control, is performed continually and is ingrained in the agency’s
operations. It includes regular management and supervisory activities, comparisons,
reconciliations, and other actions people take in performing their duties.

Accounting is a systematic process of identifying, recording, measuring, classifying, verifying,
summarizing, interpreting and communicating financial events. These financial events are
ultimately presented in financial statements through the financial reporting process. Each step in
the accounting process is an integral part of the financial reporting process.

A financial management system includes the core financial system and the financial portions of
mixed systems necessary to support financial management, including automated and manual
processes, procedures and controls, data, software, and support personnel dedicated to the
operation and maintenance of system functions.

MCC has made significant progress this year by developing and implementing a grant accrual
methodology which will be the foundation for future enhancements. MCC has also reduced
some manual processes in its financial statements preparation where financial data and new
accounts are no longer manually entered and financial data are now automatically populating all
statements, including new accounts. However, MCC needs to continue to strengthen its
financial reporting processes and controls. The interrelationship among software, personnel,
procedures, controls and data within MCC’s financial management systems (both manual and
automated) is ineffective and inefficient as described below:

   a. MCC uses a shared services provider (SSP) to process its accounting transactions. The
      SSP’s core financial system current configurations prevent MCC from recording
      significant transactions in a systematic manner. Our review of the September 30, 2012
      SSP’s open system ticket report, which tracks financial system issues, identified issues
      that remain unresolved for an unreasonable period of time. Due to the volume and
      variety of transactional financial events that MCC must record relating to its grantees;
      MCC frequently has to prepare manual adjustments at the back end of the transactions
      to correct errors such as the differences between the a) Purchase Order (PO) and
      General Ledger (GL) module, b) Accounts Payable (AP) and GL module, c) incorrect
      postings, d) system interface errors, and e) others. This system deficiency, combined
      with inadequate and untimely corrective actions, negatively impact MCC’s ability to
      record transactions timely, properly, and accurately. Although MCC applied



                                               1-1
                    MILLENNIUM CHALLENGE CORPORATION
                  INDEPENDENT AUDITOR’S REPORT EXHIBIT 1
                             September 30, 2012

   compensating controls to detect and correct these errors, with the sheer volume and
   complexity of these transactions (automated and manual), there is a high risk that errors
   will not be detected and corrected timely or not detected at all. Our audit identified
   instances where this situation occurred. Moreover, this system deficiency negatively
   impacts MCC’s limited staff resources.

   OMB Circular A-127, Financial Management Systems, which is the government-wide
   policies and standards issued pursuant to FMFIA, states that agencies are responsible
   for managing their financial management system even when they utilize a service
   provider to implement, operate and maintain the systems. Agencies must ensure that
   their financial management systems meet applicable Federal requirements and are
   adequately supported throughout the systems’ life cycle. Furthermore, agencies must
   monitor the service provider’s performance and ensure that service failures are resolved
   promptly.

b. Although MCC has made strides in improving its financial reporting process by
   implementing certain quality control review processes in response to prior year’s
   findings, much still need to be done. MCC’s financial statements preparation process
   continues to be manually intensive and susceptible to errors even though certain
   functionalities have been automated. MCC uses a complex excel workbook (workbook)
   to generate its financial statements. Trial balances from the core financial system and
   USAID are cut and pasted into the workbook. Manual journal entries and on-top
   adjustments (OTAs) are also posted into the workbook. The workbook then
   automatically generates the financial statements from these data inputs. Due to system
   issues described in 1.a. above, the trial balance generated by the core financial system
   did not have the prior year final audited balances. Therefore, MCC has to post OTAs
   pertaining to prior year to correct beginning balances. In addition, MCC posts similar
   OTAs but for the current year to adjust or correct ending balances. These beginning and
   ending balances OTAs are posted into the workbook each time the financial statements
   are prepared (quarterly). Our audit identified instances where MCC missed posting
   beginning balances OTAs and manual journal entries into the workbook at June 30,
   2012 and September 30, 2012.

c. The workbook utilized in the preparation of the financial statements did not have data
   edit lock and data change control. The workbook is accessible to many personnel
   including temporary financial personnel outside of key MCC financial staff, each having
   the ability to make changes to the workbook. In addition, due to the complexity of the
   spreadsheets in the workbook with various unprotected formulas and linkages, the risks
   of data manipulation and/or unintended data changes can introduce errors that would be
   difficult to detect and may be left undetected. Moreover, due to lack of documented
   supervisory review of the workbook, we could not verify that supervisory reviews were
   performed.

d. In reviewing the June 30, 2012 financial statements, we identified errors that led us to
   question the effectiveness of supervisory reviews, or the implementation of these
   reviews due to lack of documented evidence of reviews.




                                          1-2
                        MILLENNIUM CHALLENGE CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 1
                                 September 30, 2012

   e. Internal control is effected by people. It is not merely about policy manuals, systems, and
      forms, but about people at every level of an organization that impact internal control.
      Good human capital policies and practices are critical internal control environmental
      factors. We understand that MCC has limited staff and has to use temporary year-end
      financial staff who may not be familiar with the inner working of MCC operations. In
      addition, MCC relies heavily on contract staff in the preparation and generation of the
      financial statements. The contract staff holds immense institutional knowledge in the
      inner workings of MCC’s business transactions and various “fixes or adjustments”
      required for financial reporting and financial statement preparation. MCC runs the risk of
      not being able to produce fairly presented financial statements timely without these key
      contract staff.

Recommendations

With regards to the core financial system, we recommend that MCC:

   1. Perform a comprehensive review and determine whether the service provider’s financial
      management system is substantially in compliance with the federal financial
      management system’s requirements and meeting MCC financial management and
      reporting needs. As part of this review, management should determine if a separate
      grants management system that focuses on program administrations that interfaces with
      the core financial system is needed.

   2. Investigate and correct the causes for the underlying system errors and limitations that
      prevent or delay the recording, processing, and summarizing of accounting transactions.

   3. Review USSGL transaction posting models so that all routine accounting transactions
      are included in the normal accounting processes. Manual adjusting journal entries
      should be used for limited transactions like unusual one-time entries. All valid recurring
      entries that are currently entered manually should have standard transaction codes set-
      up to prevent posting errors.

With regards to the workbook, we recommend that MCC:

   4. Hard code key cells in the excel spreadsheets used in preparing and generating the
      financial statements to prevent unintentional or inadvertent changes.

   5. Limit access and ability to make changes to the workbook to a few personnel. Assign a
      staff and a designate as primarily responsible and accountable for the workbook.

   6. Create a log to document changes to the workbook, the date of change, the person
      making the change, and the changes made.

   7. Investigate the use of alternative approaches such as the use of a financial statement
      generation software tool or other financial management system that can interface with
      the trial balance or the core financial system and automatically generate the financial
      statements.




                                              1-3
                       MILLENNIUM CHALLENGE CORPORATION
                     INDEPENDENT AUDITOR’S REPORT EXHIBIT 1
                                September 30, 2012

With regards to supervisory reviews, we recommend that MCC:

   8. Develop a comprehensive financial statements review process that detail specific review
      steps performed, results of such reviews, steps taken to resolve discrepancies noted,
      and related management resolution.

   9. Implement an effective management review using the comprehensive review process
      developed in recommendation 8 to ensure that all transactions for the accounting period
      are accurately and completely reflected in the financial statements, current year
      beginning balances agreed to prior year audited balances, and reconciling items are
      recorded timely. Such management reviews should be performed quarterly and at year-
      end timely with evidence of management sign-off signifying levels of reviews performed.

With regards to financial staff resource management, we recommend that MCC:

   10. Cross-train MCC financial staff on the financial statements preparation process to
       ensure that there is more than one person knowledgeable and can prepare the financial
       statements.




                                            1-4
                         MILLENNIUM CHALLENGE CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                  September 30, 2012

SIGNIFICANT DEFICIENCIES

2. Validation Control over Grant Accrual Estimates Needs to be Strengthened

MCC reported approximately $1.1 billion in compact grant related expenditures and an accrued
grant liability of $106 million for expenditures incurred by the Millennium Challenge Accounts
(MCAs) but not yet paid by MCC at September 30, 2012. MCC applied its new grant accrual
methodology for the first time at September 30, 2012. The first three quarters’ financial
statements accruals were based on data calls. MCC revised its methodology in an effort to
improve and streamline the accrual process employed in prior year. MCC recognized that prior
year grant accrual process, which involved data calls from the MCAs, was based on the best
information available at the time. However, this manual process was cumbersome, time
consuming, labor intensive, time sensitive, and inconsistent, thus contributing to a high risk for
errors. To help MCC reassess this process, MCC hired an audit and consulting firm to provide a
detailed analysis and make recommendations on the appropriate methodology for the grant
accrual estimate.

MCC new accrual methodology is calculated based on an MCA’s unused spending authority.
MCC approves a quarterly spending authority in advance for each MCA. The unused spending
authority at the end of the quarter is used in the accrual calculation for each MCA. MCC uses
the MCA disbursement rate against the spending authority along with the disbursement rates for
the last three quarters to determine an average rate. The average rate is then subtracted
against 100 percent to arrive at a rate that is applied to the unused spending authority in
calculating the grant accrual estimate for the MCA.

In reviewing the calculation of the accrual estimates and the supporting documentation, we
noted many instances of calculation errors, use of incorrect spending authority, incorrect
formulas, omitted calculations, and missing documentation. Also, there was no documentation
of look back analysis and investigations of unusual fluctuations, if any, to validate the
reasonableness of the accrual estimates. An accrual look back analysis involves reviewing past
accrual estimates and analyzing whether the past estimates are reasonable when compared to
the actual. We understand that this is a new methodology and MCC has not had an opportunity
to update its Expense Accrual Policy and Procedures and perform a robust validation process.

FASAB Federal Financial Accounting Technical Release (TR) 12, Accrual Estimates for Grant
Programs, states that “As part of agencies’ internal control procedures to ensure that grant
accrual estimates for the basic financial statements were reasonable, agencies should validate
grant accrual estimates by comparing the estimates with subsequent grantee reporting.”

Recommendations

We recommend that MCC:

   11. Perform a grant accrual look back analysis on a quarterly basis for a sufficient period of
       time to develop a pattern or trend. The look back analysis and the results should provide
       MCC sufficient information to explain unusual variances between actual and estimates,
       or support updating the current grant accrual methodology. Such periodic assessment of
       the adequacy of the grant accrual methodology should be documented and supported by
       data analysis. Note that the accrued liability amount is subject to the risks that actual



                                               2-1
                        MILLENNIUM CHALLENGE CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                 September 30, 2012

       subsequent disbursement amount may be significantly different from management’s
       estimate. When this occurs, management should further analyze the drivers/factors to
       ensure the validity and reasonableness of the estimation methodology.

   12. Update the Expense Accruals Policy and Procedures to reflect the change in the
       methodology. At a minimum, the policy and procedures should include the following:

           a. documentation of the procedures and flow of information used in developing
              grant accrual estimates;
           b. a discussion of who (position title) is responsible for each step of the estimate as
              well as the review and approval process followed;
           c. the model used, the rationale for selecting the specific methodology, and, for
              programs with sufficient historical data, the degree of calibration within the
              projected spending model;
           d. the sources of information, the logic flow, and the mechanics of the model,
              including the formulas and other mathematical functions.

   13. Develop audit procedures for the MCA audit to compare spending authority request
       amount against actual expenses, and investigate and document significant variances.
       The results should be provided to MCC, which can use this information collected from
       the MCA audits as data store to validate or enhance the current methodology.

   14. Continue to enhance the accrual methodology by considering the following:

           a. stratifying the MCAs based on variances in their spending rates and/or stages in
              the compact’s life cycle;
           b. addressing situations where the MCA exceeds its quarterly spending authority;
           c. addressing situations where the compact has expired and there is no spending
              authority and disbursements are still occurring;
           d. obtaining detailed document level breakdown of expenses to be used to compare
              against the accrual estimates;
           e. other factors as deemed necessary to achieve an acceptable precision of the
              accrual estimate.

3. Monitoring Control over Funds Provided to MCAs Needs Improvement

OMB Circular A-123, Management Responsibility for Internal Control, states that monitoring the
effectiveness of internal control should occur in the normal course of business. In addition,
periodic reviews, reconciliations or comparisons of data should be included as part of the
regular assigned duties of personnel. Periodic assessments should be integrated as part of
management’s continuous monitoring of internal control, which should be ingrained in the
agency’s operations. If an effective continuous monitoring program is in place, it can level the
resources needed to maintain effective internal controls throughout the year.

An adequate monitoring system oversees the design, implementation, and effectiveness of
controls in mitigating risks. This monitoring system can be structured as an ongoing assessment
program (for instance, supervisory reviews of day to day financial operations and reporting) or
as a point in time program when a point in time assessment is required (for instance, MCA
audits).



                                               2-2
                        MILLENNIUM CHALLENGE CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                 September 30, 2012

When a country is awarded a grant (compact), it sets up its own local MCA accountable entity to
manage and oversee all aspects of implementing the compact. The MCAs, as the grantees of
MCC’s funds, are responsible for submitting financial, programmatic and compliance
documentation to MCC in accordance with their compact agreements with MCC and other
administrative requirements. MCC, as the grantor, is responsible for reviewing and monitoring
the MCA’s compliance with the compact agreement and other administrative requirements.
MCC needs to continue to strengthen its monitoring controls over the funds provided to the
MCAs.
   A. Audit Reports

       MCAs are required to obtain an annual (or semi-annual as agreed upon) financial audit
   of the MCC funds by an independent auditor. We reviewed the audits covering the last two
   years for 13 MCAs, which accounted for a total of 25 MCA audit reports. Similar to last
   year’s finding, 20 out of 25 (or 80 percent) audit reports were not received timely or were
   already due but not yet received as of July 20, 2012, our test date. There were 15 audit
   reports that were submitted late, ranging from 2 months to 9 months late, and 5 audit reports
   due but not yet received ranging from 1 month to 3 months late as of the test date.
       A financial audit of the MCA Fund Accountability Statement conducted by an
   independent auditor in accordance with Government Auditing Standards issued by the
   Comptroller General of the United States, provides an assurance to MCC that the MCA’s
   revenues received, costs incurred, and commodities and technical assistance directly
   procured by the MCC are not materially misstated, and that tests of MCA’s internal control
   and compliance with compact terms and applicable laws and regulations related to MCC
   funded programs were performed. The MCA financial audit is a key MCC internal control
   over monitoring of MCA’s control over financial reporting and compliance and its reliance on
   MCA’s financial reports. Accordingly, MCC should ensure that these audits are performed
   and submitted timely, reviewed timely, and corrective actions, if any, are implemented
   timely.
       A timely audit involves the timely engagement of an audit firm by the MCA, an agreed
   upon timeline that ensures that the deliverables are provided within the deadlines, quality
   deliverables from the audit firms, and timely responses from the MCA and the audit firms.
   MCC has the monitoring responsibility over the audit process, and the USAID OIG has the
   oversight responsibility over the MCC’s monitoring process. The USAID OIG provides
   oversight by reviewing both the initial and the close-out planning documents received from
   the MCAs. We understand that both USAID OIG and MCC are working together to minimize
   the delays in the MCA audits, but more can be done to address the root causes of these
   delays.

Recommendations

   15. Monitoring the timeliness, completeness, effectiveness, and implementation of corrective
       action plans of the MCA audits is ultimately MCC management responsibility. MCC
       management should have control over how these audits should be conducted to meet its
       financial and programmatic accountability, needs and requirements. USAID OIG has the
       oversight responsibility to ensure that MCC management’s monitoring of MCA audits are
       designed properly and operating effectively. We recommend therefore, that MCC
       management collaborate with USAID OIG to clarify and document management roles,



                                             2-3
                        MILLENNIUM CHALLENGE CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                 September 30, 2012

      responsibilities, and performance standards and the USAID OIG oversight roles with
      regards to these MCA audits.

   16. MCC needs to evaluate its resources, capability, and ability to monitor and review the
       quality and performance of the audits and the audit firms to track and conduct follow-up
       of corrective action plans with the MCAs in a timely manner.

   B. Final Quarterly Financial Report (QFR)

        MCC requires the MCA to submit a Schedule C (CPS payments only) of the QFR (final
   QFR) 30 days prior to the program closure date to ensure that the MCA and the MCC books
   are reconciled prior to the submission of the final financial report. We reviewed two MCAs
   that closed in fiscal year 2012 by comparing the award amount, disbursement amount, and
   the remaining balance from the final QFR to what MCC reported. The final QFRs were
   received from the MCAs in February and May of 2012. Our review disclosed that the total
   disbursements and compact balance amounts reported by the MCAs in their final QFRs
   differed between $1 million and $3.5 million from the MCC reported amounts. In one of the
   MCAs we reviewed, MCC indicated that it has not prepared a reconciliation. In another MCA
   we tested, MCC provided a spreadsheet that included payment information from the core
   financial system. There was no clear documentation of a comparison made between the
   MCA and MCC records, differences noted, and the resolution of differences, if any.
   However, there were comments throughout the spreadsheet that seemed to indicate no
   support for some payments, some duplicate payments that have not been resolved, some
   incorrect payment amounts, and payments made to the wrong fund.

       MCC requires the MCA to perform a monthly reconciliation of the CPS monthly
   Summary Report (of disbursements) from the MCC core financial system to the MCA’s
   accounting records. Corrections are processed through the use of a Payment Inquiry Form
   (PIF) to address discrepancies and resolve them with the SSP. MCC receives copies of the
   PIF and a monthly certification letter from the MCA stating that reconciliation was performed
   and that the MCA records agree with the MCC records. The actual reconciliation is not
   provided to MCC or to the SSP.

       MCC is not taking advantage of important tools in monitoring the MCAs’ financial
   reporting process and validating its financial records. It has not established formal
   procedures for how the MCAs should document and report their monthly reconciliation of the
   compact award and expenses. Documented reconciliations will help to expedite the compact
   close out process. MCC also has not established formal procedures for how the
   reconciliation to the MCA final QFR is to be documented and the timeline for completion.

Recommendations

We recommend that MCC:

   17. Utilize the QFRs and the monthly reconciliations as monitoring tools over the MCA’s
       financial reporting process and the MCC’s validation of its financial records. To be
       effective as monitoring tools, the re-designing of the QFR form and the development and
       documentation of the monthly reconciliation process should ensure that relevant data
       and information are reported by the MCAs and reported timely.



                                               2-4
                         MILLENNIUM CHALLENGE CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                  September 30, 2012

   18. Ensure that MCA reconciliations are provided to MCC and reviewed to investigate
       material variances and make corrections, if any.

   19. Require the MCA audit firms to test the design and effectiveness of the MCA’s internal
       control over the QFRs and the monthly reconciliation, and to test for the accuracy of the
       balances and reconciliation.

   20. Develop and implement reconciliation procedures to document the complete
       reconciliation between the MCA’s final QFR and MCC’s records.

   C. Expired Compacts Not Financially Closed-Out

       As of June 30, 2012, there were six compacts that expired, but were not financially
   closed-out. The final audit report is due 120 days after the compact end date. The time that
   has expired since that due date ranges from 5 months to 17 months with a total unliquidated
   obligations balance of over $17 million. Untimely de-obligation of funds results in misstated
   balances or misclassified funds in the statement of budgetary resources.

Recommendations

We recommend that MCC:

   21. Timely assess the MCA’s need for the remaining compact funds so that the funds could
       be de-obligated within the timeline in the policy and procedures after the compact
       expires.

   22. Develop and implement a financial management policy that separates the programmatic
       close-out process from the financial close-out process. This policy should clearly layout
       the expected timing for de-obligation.

4. Information Systems Controls Need Improvement

All business processes today are impacted in some respects by information systems
applications, policies, and controls. Information system is key to financial information collection,
classification, allocations, and reporting.

Information systems controls must be in place to ensure that critical data, transactions and
programs are processed in a timely manner. These include controls over MCC’s general
support system used to gain access to the contractor owned financial applications. Our
evaluation of the general and application controls of MCC’s key information technology
infrastructure identified the following control weaknesses, taken together, constitute a significant
deficiency.

Security Management

      MCC needs to strengthen personnel out-processing procedures. MCC personnel exit
       checklists were not maintained in the Staff Track and Reconciliation System (STARS) as
       required in the MCC Exit Policy and Clearance Procedures. Additionally, while the new
       exit process had been announced and the technology implemented, the process had not



                                                2-5
                         MILLENNIUM CHALLENGE CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                  September 30, 2012

       been adopted by the stakeholders involved: Human Resources, Contracts, and Office of
       Security.

      MCC did not properly assess system risks on the agency’s general support system,
       MCCNet and MIDAS system for the fiscal year. For example:

          o   MCC did not maintain a current Authorization to Operate (ATO) for the MCCNet
              General Support System. The ATO expired on June 8, 2012, without MCC
              completing a reauthorization of the system.
          o   MCC did not perform a security impact assessment prior to moving its data
              center.
          o   MCC did not complete a risk assessment to reflect the new data center. The last
              revision to the risk assessment was dated June 8, 2009.

       In addition, a current risk assessment for the MIDAS system was not completed on an
       annual basis.

      MCC needs to conduct system security assessments as specified by the National
       Institute of Standards and Technology (NIST). The fiscal year 2012 security assessment
       for MCCNet reviewed only two control families from NIST Special Publication 800-53,
       Revision 3: Access Controls and Media Protection. However, the assessment was not in
       accordance with the NIST Special Publication 800-37, Revision 1, risk management
       framework and continuous monitoring.

      MCC needs to ensure all personnel receive security awareness training. MCC did not
       track users who failed to participate in the daily Tips of the Day. In addition, MCC did not
       establish a required number of tips a user must view each month or year.

      MCC did not fully implement NIST Special Publication 800-53, Revision 3 into its
       information system security policies. MCC was in the process of updating the Policy;
       however, it was not finalized.

      The MCCNet system security plan did not accurately reflect the current information
       system environment.

Contingency Planning

      MCC did not perform testing of the MCCNet contingency plan for Fiscal Year (FY) 2012.
       The last test was conducted in February of 2011; however, the test results and lessons
       learned were not formally documented and reported until November 2011.

Access Controls

      MCC needs to periodically review network accounts. MCC did not perform quarterly
       reviews of MCCNet group memberships as documented within the MCC Access Control
       Procedures. In addition, MCC did not review network accounts of users that had never
       logged into system.




                                               2-6
                        MILLENNIUM CHALLENGE CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                 September 30, 2012

Configuration Management

      MCC needs to strengthen security controls surrounding patch and configuration
       management. MCC had procedures in place that use vulnerability scanning software to
       assist in detecting and reporting security vulnerabilities. However, our evaluation
       identified critical and high vulnerabilities on MCC hosts that MCC did not identify through
       its scans.

      MCC did not effectively track and maintain their asset inventory. Asset management
       personnel did not follow a set of documented procedures for how to manage the asset
       inventory. In addition, MCC did not conduct periodic wall-to-wall asset inventories.

      MCC did not have documented change management procedures that describe types of
       changes and levels of testing applied to the changes prior to approval by the
       Configuration Control Board.

These findings highlight the MCC’s lack of compliance with the NIST publications, OMB
Circulars, and FISMA requirements as listed below:

OMB Circular A-130, Management of Federal Information Resources, Appendix III, states
“Agencies shall implement and maintain a program to assure that adequate security is provided
for all agency information collected, processed, transmitted, stored, or disseminated in general
support systems and major applications.”

The Federal Information Security Management Act of 2002 (FISMA) requires that each agency
develop an agency-wide information security program that includes:

      Periodic assessments of risk, including the magnitude of harm that could result from the
       unauthorized access, use, disclosure, disruption, modification, or destruction of
       information and information systems that support the operations and assets of the
       organization;
      Policies and procedures that are based on risk assessments, cost-effectively reduce
       information security risks to an acceptable level and address information security
       throughout the life cycle of each organizational information system;
      Plans for providing adequate information security for networks, facilities, information
       systems, or groups of information systems, as appropriate;
      Security awareness training to inform personnel of the information security risks
       associated with their activities and their responsibilities in complying with organizational
       policies and procedures designed to reduce these risks;
      Periodic testing and evaluation of the effectiveness of information security policies,
       procedures, practices, and security controls to be performed with a frequency depending
       on risk, but no less than annually;
      A process of planning, implementing, evaluating, and documenting remedial actions to
       address any deficiencies in the information security policies, procedures, and practices
       of the organization;
      Procedures for detecting, reporting, and responding to security incidents; and
      Plans and procedures for continuity of operations for information systems that support
       the operations and assets of the organization.



                                               2-7
                        MILLENNIUM CHALLENGE CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 2
                                 September 30, 2012

By not effectively implementing and enforcing IT policies and procedures, there is an increased
risk that financial and sensitive information may be inadvertently or deliberately misused and
may result in improper disclosure or theft without detection.

Recommendation

We are not repeating our recommendations which are included in the USAID OIG Report titled
“Audit of Millennium Challenge Corporation’s Fiscal Year 2012 Compliance with Federal
Information Security Management Act of 2002,” Audit Report M-000-13-001-P, dated November
6, 2012.




                                             2-8
                         MILLENNIUM CHALLENGE CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 3
                                  September 30, 2012

STATUS OF PRIOR YEAR’S FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards and OMB Bulletin No. 07-04, as amended, we
have reviewed the status of MCC corrective actions with respect to the findings and
recommendations included in MCC’s Report on Internal Control for FY 2011. The following
analysis provides our assessment of the progress MCC has made through September 30, 2012
in correcting the noted deficiencies.

 FY 2011 Findings             FY 2011 Recommendations                      FY 2012 Status

 I. MCC’s Financial    1. Develop and document a financial             Partially Closed.
    Reporting Needs       reporting process that reduces the           Financial Reporting
    Improvement –         likelihood of errors, inconsistencies, and   Process still in draft.
    Material              inaccuracies and results in efficiencies     Some conditions
    Weakness              and effectiveness, consistency, and          identified in FY 2011
                          accuracy of financial data.                  still exist in FY 2012
                                                                       and are reported as
                                                                       MW.
                       2. Enhance the quality control process to       Partially Closed. Some
                          detect errors or improper closeout of        conditions identified in
                          accounts through additional check totals,    FY 2011 still exist in FY
                          training, and involvement of additional      2012 and are reported
                          A&F staff members.                           as MW.
 II. Controls over     3. Develop an appropriate MCC data store        Partially Closed. Some
     MCC Accrued          of MCA expense information as required       conditions identified in
     Expenses,            by TR 12.                                    FY 2011 still exist in FY
     Retentions, and                                                   2012 and are reported
     Advances Need                                                     as Significant
     Improvement –                                                     Deficiency (SD).
     Material
     Weakness (MW)
                       4. Perform similar data validation employed     Closed – New accrual
                          at year-end for each quarter going           methodology adopted
                          forward.                                     in FY 2012
                       5. Prepare an MCC developed estimate for                Closed
                          accrued expenses based upon statistical
                          modeling or alternative that is based on
                          MCC obtained data.
                       6. Record advances in accordance with                   Closed
                          generally accepted accounting principles.
                       7. Develop and implement a periodic                     Closed
                          reconciliation process for advances.
                       8. Develop and implement a quarterly                    Closed
                          certification for advance transactions
                          processed by the MCAs as part of the
                          quarterly data call submission.




                                              3-1
                         MILLENNIUM CHALLENGE CORPORATION
                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 3
                                  September 30, 2012

                       9. Modify MCA audit requirements to include        Partially Closed. MCC
                          testing and reporting of advances               proposed changes to
                          transactions.                                   MCA Audit Guide to
                                                                          address the testing and
                                                                          reporting of advances
                                                                          transactions. However,
                                                                          the changes have not
                                                                          been finalized and
                                                                          implemented by the
                                                                          MCAs.
III. MCA Required      10. Collaborate with the OIG and provide the                Closed
     Documentation,        MCA auditors with a document discussing
     including Audit       the issues/errors that have led to delays in
     Reports,              processing and clearing the audit plans
     Quarterly             and audit reports in a timely manner.
     Disbursement
     Requests and
     Compact
     Closure Plans
     are not
     Submitted,
     Reviewed,
     and/or Approved
     in a Timely
     Manner –
     Significant
     Deficiency (SD)
                       11. Provide comprehensive guidance to              Recommendation
                           MCAs regarding the procurement of firms        Closed. However,
                           to perform the FAS audits with a focus on      certain conditions
                           timeliness and completeness of the audit       identified in FY 2011
                           deliverables and potential penalties.          still exist in FY 2012
                                                                          and are reported as
                                                                          SD.
                       12. Continue to collaborate with the OIG to        Recommendation
                           improve communications regarding audit         Closed. However,
                           status and solutions to moving individual      certain conditions
                           audits to completion on a timely basis.        identified in FY 2011
                                                                          still exist in FY 2012
                                                                          and are reported as
                                                                          SD.
                       13. Reiterate the program requirements that        Recommendation
                           QDRs are to be accurate and complete           Closed. However,
                           and submitted within the required              certain conditions
                           timelines and provide them with                identified in FY 2011
                           information about issues/things that cause     still exist in FY 2012
                           delays.                                        and are reported as
                                                                          management letter
                                                                          (ML)


                                               3-2
                        MILLENNIUM CHALLENGE CORPORATION
                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 3
                                 September 30, 2012

                      14. Review their current guidelines for         Recommendation
                          submission of CCPs to determine if the      Closed. However,
                          timelines is reasonable and realistic. In   certain conditions
                          addition, DCO should work closely with      identified in FY 2011
                          MCAs to develop and compile a compact       still exist in FY 2012
                          closure plan and resolve any outstanding    and are reported as
                          items in advance of compact closure.        ML.
IV. Reconciling       15. Continue to follow USAID’s progress         Recommendation
    Fund Balance          towards elimination of cash balance         Closed. However, the
    with Treasury –       differences between USAID and Treasury      condition still exist in
    SD                    and timely clearing of suspense account     FY 2012 and is
                          items in order to monitor MCC’s risks of    reported as ML.
                          potential misstatements.




                                             3-3
                                                                                                 Exhibit 4



    *
MILLENNIUM
CHALLENGE CORPORATION
UNITED STATES OF AMERICA



        November 13,2012

        Mia Leswing, CPA, CISA, CGFM, Partner
        CliftonLarsonAllen, LLP
        4250 N. Fairfax Drive
        Suite 1020
        Arlington, VA 22203

        Richard J. Taylor
        Deputy Assistant Inspector General!Audit
        Millennium Challenge Corporation
        140 I H Street, NW, Suite 770
        Washington, DC 20005

        Dear Ms. Leswing and Mr. Taylor:

        MCC has reviewed the draft audit report received November 9,2012. In response to audit findings
        characterized as material weaknesses and significant deficiencies, as well as the associated
        recommendations, MCC has the following comments:

        Material Weakness: Ineffective and Inefficient Interrelationship Among Software, Personnel,
        Procedures, Controls and Data within MCG's Financial Management Systems

        Recommendations from the auditors:
           I. Perform a comprehensive review and determine whether the service provider's financial
              management system is substantially in compliance with the federal financial management
              systems' requirements and meeting MCC needs. As part of this review determine if a
              separate grants management system that focuses on program administration that interfaces
              with the core financial system is needed.
           2. Investigate and correct the causes for the underlying systems errors and limitations that
              prevent or delay the recording, processing, and summarizing of accounting transactions.
           3. Review USGGL transaction posting models so that all routine accounting transactions are
              included in the normal accounting processes. Manual adjusting journal entries should be
              used for limited transactions like one-time entries. All valid recurring entries that are
              currently entered manually should have transaction codes set-up to prevent posting errors.
           4. Hard code key cells in the excel spreadsheets used in preparing and generating the financial
              statements to prevent unintentional or inadvertent changes.
           5. Limit access and ability to make changes to the workbook to a few personnel. Assign a staff
              and a designate as primarily responsible and accountable for the workbook.
           6. Create a log to document changes to the workbook, the date of change, the person making the
              change, and the changes made.
           7. Investigate the use of alternative approaches such as the use of a financial statement
              generation software tool or other financial management system that can interface with the
              trial balance or the core financial system and automatically generate the financial statements.


    875 Fifteenth Street NW I   Washington. DC I   20005-2221 I   p: (202) 521-3600 I f: (202) 521-3700   I www.mcc.gov

                                                          4-1
   8. Develop a comprehensive financial statements review process that details specific steps
       performed, results of such reviews, steps taken to resolve discrepancies noted, and related
       management resolution.
   9. Implement an effective management review using the comprehensive review process
       developed in recommendation 8 to ensure that all transactions for the accounting period are
       accurately and completely reflected in the financial statements, current year beginning·
       balances agreed to prior year audited balances, reconciling items are recorded timely and
       others. Such management reviews should be performed quarterly and at year-end timely with
       evidence of management sing-off signifying levels of reviews performed.
   10. Cross-train MCC financial staff on the financial statements preparation process to ensure that
       there is more than one person knowledgeable and can prepare the financial statements.

Response from MCC:
MCC concurs with recommendations 1 through 10.

Significant Deficiency: Validation Control over Grant Accrual Estimates Needs to be
Strengthened
Recommendations from the auditors:
    11. Perform the grant accrual look back analysis on a quarterly basis. The look back analysis
        methodology and results should provide MCC sufficient information to explain unusual
        variances between actual and estimates, or support updating th,i: current grant accrual
        methodology. Such periodic assessment of the adequacy ofth~ grant accrual methodology
        should be documented and supported by data analysis. The liability amount is subject to risk
        that actual subsequent disbursement account may be significantly different from
        management's estimate. When this occurs, management should further analyze the
        drivers/factors to ensure the validity and reasonableness ofthe estimation methodology.
    12. Update the Expense Accruals Policy and Procedures to reflect the change in the
        methodology.
    13. Consider developing audit procedures for the MCA audit to compare spending authority
        request amount against actual expenses, and investigate and document significant variances.
        The results should be provided to MCC and used this information collected from the MCA
        audits as data store to validate or enhance the current methodology.
    14. Continue to enhance the accrual methodology.

Response from MCC:
MCC concurs with recommendations 11 through 14.

Significant Deficiency: Monitoring Control over Funds Provided to Millennium Challenge
Accounts (MCAs) Needs Improvement

Recommendations from the auditors:
   15. MCC management should have control over how these audits should be conducted to meet
       its financial and programmatic accountability, needs and requirements. MCC management
       should collaborate with USAID OIG to clarify and document management roles,
       responsibilities, and performance standards and the USAID OIG oversight roles with regards
       to MCA audits.
   16. MCC needs to evaluate its resources, capability, and ability to monitor and review the quality
       and performance of the audits and the audit firms, to track and conduct follow-up of
       corrective action plans with the MCAs.
   17. Utilize the QFRs and the monthly reconciliations as monitoring tools over the MCA's
       financial reporting process and validating MCC's financial records. To be effective

                                            4-2
         monitoring tools, the re-designing of the QFR form and the development and documentation
         of the monthly reconciliation process should ensure that relevant data and information are
         reported by the MCAs and reported timely.
   18.   Ensure that MCA reconciliations are provided to MCC and reviewed to investigate material
         variances and make corrections, if any.
   19.   Require the MCA audit firms to test the design and effectiveness of the MCA's internal
         control over the QFRs and the monthly reconciliation and to test for the accuracy of the
         balances and reconciliation.
   20.   Develop and implement reconciliation procedures to document the complete reconciliation
         between the MCA's final QFR and MCC's records.
   21.   Timely assess the MCA's needs for the remaining compact funds so that the funds could be
         de-obligated within the timeline in the policy and procedures after the compact expires.
   22.   Develop and implement a financial management policy that separates the programmatic
         close-out process from the financial close-out process. T.his policy should clearly layout the
         expected timing for de-obligation.

Response from MCC:
MCC concurs with recommendations 15 through 22.

Significant Deficiency: Information Systems Controls Need Improvement
Recommendations from the auditors:
    23. Repeat recommendations from the FISMA Report.

Response from MCC:
MCC concurs with recommendations in the FISMA Report

MCC will be addressing each recommendation as part of a comprehensive corrective action plan
beginning in the first quarter ofFY 2013 with the intent to develop and implement necessary changes
as soon as possible.

Sincerely,
MILLENNIUM CHALLENGE CORPORATION
By:
Chantale Wong /s/
Vice President, Administljition and Finance, and
Chief Financial Officer
Millennium Challenge Corporation




                                               4-3
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
